No._______
IN THE
SUPREME COURT OF THE UNITED STATES

Richard G. Wern,
Petitioner,

vs.
Supreme Court of South Carolina

Respondent.
On Petition for Writ of Certiorari
To the Supreme Court of South Carolina
CERTIFICATE OF PETITIONER
As required by the Supreme Court Rule 33.1(h), I certify that the document contains
2434 words in Century Schoolbook, type font 12, excluding the parts of the document
that are exempt by Supreme Court Rule 33.1(d).
Respectfully submitted,
s/ Desa Ballard
Desa Ballard
Supreme Court Bar No. 174416
Ballard & Watson
226 State Street
West Columbia, South Carolina 29169
Telephone 803.796.9299
desab@desaballard.com
February 23, 2021

ATTORNEY FOR PETITIONER
23

